Hotline Complaint               August 31, 2009
Report on Hotline Complaint Regarding the Actions by
   a Contracting Officer at the Defense Contract
     Management Agency, East Hartford Office.

           Report No. D-2009-6-008
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax
  (703) 604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982. Ideas and requests can also be mailed to:


                           Office of the Assistant Inspector General
                                for Audit Policy and Oversight
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 837)
                                  Arlington, VA 22202-4704




Acronyms

CAFU                  Contract Audit Follow-up
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
DFARS                 Defense Federal Acquisition Regulation
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704




                                                                            AOO 31 2009

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               COMMANDER, DEFENSE CONTRACT MANAGEMENT
                  AGENCY, EAST HARTFORD OFFICE

SUBJECT: Report on Hotline Complaint Regarding the Actions by a Contracting Officer at
         the Defense Contract Management Agency, East Hartford Office
         (Report No. D-2009-6-008)

        We are providing this report for your information and use. We performed the review
in response to a Defense Hotline complaint. We considered management comments on a
draft of this report when preparing the final report. The Defense Contract Management
Agency comments conformed to the requirements of DOD Directive 7650.3; therefore,
additional comments are not required.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davisrm,dodig.mil.



                                                hades                    __
                                            Deputy Inspector General
                                             for Policy and Oversight
Table of Contents
Results in Brief                                               i

Introduction

   Objective                                                   1
   Background                                                  1

Findings

   A. Hotline Complaint                                        3
         Timely Response to DCAA Findings                      3
         Failure to Address All DCAA Findings                  3
         Preparation of Professionally Written and Easily
             Understandable Disposition of Findings            4
         Understanding the DCAA Findings and Pertinent
             Sections of the Federal Acquisition Regulation    4
         Recommendation A                                      6

   B. Inaccurate Contract Audit Follow-up Data                 9
          Data Accuracy Requirements                           9
          Data Errors                                          9
          Recommendation B                                    10

Appendixes

   A.   Scope and Methodology                                 11
   B.   Review Results by Audit Report                        12
   C.   Untimely Resolution and Disposition                   13
   D.   Audit Reports Inaccurately Added or Missing           14
   E.   Reported Incorrect Costs                              15
   F.   Reported Date Inaccuracies                            16

Management Comments
   Defense Contract Management Agency Comments                18
                      Hotline Complaint Regarding Actions
                         by a Contracting Officer at the
                     Defense Contract Management Agency
                               East Hartford Office
Results In Brief
What We Did
                                                    What We Recommended
We conducted this review to determine the
validity of a complaint received by the             DCMA needs to provide the contracting
Defense Hotline regarding the actions that a        officer with training and implement quality
contracting officer took in response to audit       assurance procedures to help ensure that the
reports addressed to the Defense Contract           contracting officer executes timely and
Management Agency (DCMA) East                       appropriate actions. The Commander of the
Hartford office.                                    DCMA East Hartford office should request
                                                    that the contracting officer assess interest for
What We Found                                       a cost accounting standard noncompliance
                                                    and take action on an audit finding that was
We substantiated the allegations contained          not previously addressed. The Commander
in the DoD Hotline complaint. In seven              should also develop a plan that would ensure
instances, actions taken by the contracting         they work as a team with the auditor in
officer on contract audit reports were              performing reviews of contractor estimating
untimely. In one instance, the contracting          systems and resolving reported findings in
officer failed to take any action on one            accordance with the FAR. Finally, the
significant estimating system deficiency that       Commander should implement procedures
the auditor reported. In three instances, the       for minimizing contract audit follow-up data
contracting officer did not prepare an              errors.
adequate negotiation memorandum.           In
seven instances, the contracting officer had        Management Comments
not demonstrated a sufficient understanding
of the Federal Acquisition Regulation,              DCMA was fully responsive to the
Defense Federal Acquisition Regulation              recommendations when commenting on the
Supplement, or DoD Directive 7640.2                 July 24, 2009 draft of this report; additional
(Policy for Follow-up of Contract Audit             comments are not required. The full text of
Reports).       The contracting officer’s           management comments is included as the last
insufficient knowledge of processing cost           element in this report, page 18.
accounting      standard      noncompliances
resulted in a failure to assess approximately       United Stated Department of Department of Defense Office of Inspector General
$466,000 in interest that was due to the                                 (Project No. D2008-DIP0AI-0192)
                                                                              Report No. D-2009-6-008
Government. Finally, the contracting officer                                      August 31, 2009

did not maintain accurate records of contract
audit follow-up data included in the DCMA
East Hartford portion of the DoD Inspector
General Semiannual Report to Congress.
                                                i
                                       Introduction
Objective
We conducted this review to determine the validity of a complaint received by the DoD Hotline
involving the actions of a contracting officer assigned to the Defense Contract Management
Agency, East Hartford office. The complaint alleges that the contracting officer failed to:

        •   Timely respond to Defense Contract Audit Agency findings involving estimating
            system deficiencies,
        •   Address all Defense Contract Audit Agency findings,
        •   Prepare professionally written and easily understandable contracting officer
            disposition of findings, and
        •   Understand the Defense Contract Audit Agency findings and pertinent sections of the
            Federal Acquisition Regulation.

The complainant cited the following five Defense Contract Audit Agency audit reports in
support of the allegation:

  Audit Report Description                                                              Audit Report No.
  Audit of Manufacturing Operations Purchasing System                                 2641-2006A12030001
  Audit of Administrative Pension Adjustments in the Forward Pricing Rate Agreement   2641-2006G17900002
  Flash Estimating System Deficiencies (Duplication of Material Markup Factors and
  Associated Overstated Escalation)                                                   2641-2006G24020001
  Flash Estimating System Deficiencies (Regarding Unsupported Tooling Estimate)       2641-2006G24020002
  Estimating System Deficiencies Found During Audits of F119 Lot 6 Re-Pricing and
  F100 Multi-Year MUP Kits Proposals                                                  2641-2006G24020003

In evaluating the merits of the allegations, we reviewed the actions that the contracting officer
took on 12 audit reports, including these 5 reports. In addition to reviewing the DoD Hotline
complaint, we reviewed the contracting officer’s actions on the reporting of contract audit
follow-up data and the assessment of penalties. See Appendix A for details regarding our scope
and methodology and prior coverage.

Background
Defense Contract Audit Agency (DCAA). DCAA, under the authority, direction, and control
of the United States Under Secretary of Defense (Comptroller), is responsible for performing all
contract audits for the DoD and providing accounting and financial advisory services regarding
contracts and subcontracts to all DoD Components responsible for procurement and contract
administration. These services are provided in connection with negotiation, administration, and
settlement of contracts and subcontracts. DCAA issues audit reports resulting from several types of
audits, such as audits on contractor compliance with cost accounting standards and the adequacy of




                                                      1
internal control systems. The audit reports addressed in our review of the DoD Hotline complaint
involve DCAA audits of a DoD contractor’s internal control systems and compliance with the cost
accounting standards.

DCAA conducts audits of internal control systems at major DoD contractors to evaluate the
adequacy of the internal controls over major financial systems, such as the accounting, billing,
estimating, and purchasing systems.

DCAA conducts audits of Cost Accounting Standards to determine that a contractor’s cost
accounting practices comply with the requirements of the Cost Accounting Standards contained in
48 Code of Federal Regulations Chapter 99, Cost Accounting Standards Board, Office of Federal
Procurement Policy, Office of Management and Budget. The Cost Accounting Standards are
incorporated in the Federal Acquisition Regulation as an Appendix, Cost Accounting Preambles
and Regulations. The Cost Accounting Standards establish rules for consistently estimating,
accumulating and reporting costs on Government contracts.

Defense Contract Management Agency (DCMA). DCMA is the United States Department
of Defense (DoD) Component that works directly with Defense suppliers to help ensure that
DoD, Federal, and allied government supplies and services are delivered on time at projected
cost and meet performance requirements. DCMA contracting officers are responsible for
resolving and completing the disposition of most DCAA audit reports on behalf of the Army,
Navy, Air Force, Defense Logistics Agency, and other DoD agencies. The Defense Contract
Management Agency office located in East Hartford is one of 47 field offices that DCMA has
established throughout the United States.

Office of Management and Budget Circular Number A-50, “Audit Followup,”
September 29, 1982 provides the policies and procedures for use by executive agencies when
considering reports issued by the Inspectors General, other executive branch audit organizations
(such as DCAA), the Government Accountability Office, and non-Federal auditors where
follow-up is necessary.

Department of Defense Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,”
February 12, 1988, prescribed the responsibilities, reporting requirements, and follow-up
procedures on contract audits conducted by the Defense Contract Audit Agency. Paragraph 6.5
of the Directive required the contracting officer to prepare a post-negotiation memorandum
covering the disposition of all significant audit report findings, including the underlying rationale
for such dispositions. The DoD Inspector General evaluates the effectiveness of contract audit
follow-up (CAFU) systems implemented at each DoD Component for compliance with this
directive.

DoD Directive 7640.2 also required DoD Components to submit semiannual status reports on
reportable contract audits to the DoD Inspector General. The DoD Inspector General includes a
summary of the status reports for all DoD Components in its Semiannual Report to Congress.
DoD Directive 7640.2 applied to all CAFU actions covered in this review. On August 22, 2008,
the DoD Acting Inspector General reissued the Directive as DoD Instruction 7640.02.




                                                   2
                                               Findings
A. Hotline Complaint
We substantiated the DoD Hotline complaint. A contracting officer assigned to the DCMA East
Hartford office failed to:

         •   Timely respond to DCAA findings on 7 of 12 reports;
         •   Address a DCAA finding in 1 of 12 reports;
         •   Prepare professionally written and easily understandable dispositions of findings on
             3 of 12 reports; and
         •   Sufficiently understand pertinent sections of the Federal Acquisition Regulation,
             Defense Federal Acquisition Regulation Supplement, or DoD Directive 7640.2 with
             respect to 7 of 12 reports.

The DCMA East Hartford office needs to provide the contracting officer with adequate training
and implement quality assurance procedures to ensure that the contracting officer executes
timely and effective CAFU actions in the future. See Appendix B for details of our review
results by audit report.

Timely Response to DCAA Findings. Of the 12 reports we reviewed, the contracting officer
did not complete actions on 7 of 12 reports within the timeframes required by DoD
Directive 7640.2 or Office of Management and Budget Circular Number A-50. According to
DoD Directive 7640.2, paragraphs 6.1 and E2.1.12, a contracting officer should resolve 1 a
contract audit report within 6 months and disposition 2 a report within 12 months. If contracting
officers do not complete their actions within these timeframes, they should provide adequate
justification for the delay in the contract file. In all 7 cases, the contracting officer failed to
include any such justification in the contract files. Moreover, we did not identify significant
legal, contractual or other issues that would have justified a delay in meeting the timeframes. In
one case, the contracting officer took 21 months to resolve the audit report (15 months beyond
the 6 month resolution requirement) at which point the action was meaningless because the
contractor had already corrected the reported deficiency. Appendix C provides a detailed listing
of audit reports where the contracting officer actions exceeded the required timeframes.

Failure to Address All DCAA Findings. Of the 12 reports we reviewed, the contracting officer
did not take action on a significant finding included in one report, DCAA Audit Report
No. 2641-2006G24020003. In this report, DCAA reported four deficiencies related to the
contractor’s cost estimating methods used in a cost proposal. The contracting officer’s
October 29, 2007 negotiation memorandum for this audit report does not address one of the four

1
  An audit report is resolved when the contracting officer documents a plan for settling the reported findings in a
negotiation memorandum.
2
  An audit report is dispositioned when the contracting officer completes all actions necessary to settle the reported
findings and recommendations.


                                                           3
findings involving the contractor’s failure to use subcontract cost analysis to determine price
reasonableness. Left uncorrected, the contractor could be proposing unreasonable subcontractor
costs. The contracting officer should take immediate action on this reported finding.

Although we found only one instance of failing to address a DCAA finding, the Government
could nevertheless be significantly harmed for such failure. The DCMA East Hartford office
should implement corrective actions to prevent future occurrences.

Preparation of Professionally Written and Easily Understandable Disposition of
Findings. Of the 12 audits we reviewed, we found three instances where the contracting officer
did not prepare an adequate negotiation memorandum. The negotiation memorandum serves as
the official record of actions taken to disposition the contract issues raised in the contract audit
report. As required by OMB Circular A-50, paragraph 6a, the negotiation memorandum must
document the contracting officer’s agreement or disagreement with the audit findings and
recommendations. The contracting officer must fully explain the basis for any disagreement in
the negotiation memorandum. The negotiation memorandum should demonstrate that the actions
taken by the contracting officer were consistent with applicable law, regulations, and DoD
policy. It also serves to protect the interests of the Government in the event of future disputes.

Of the three instances, two involved audit reports of the contractor’s estimating system where the
contracting officer did not adequately explain the basis for disagreeing with the auditor in the
negotiation memorandum. The negotiation memorandum for DCAA Audit Report
No. 2641-2006G24010001 does not adequately explain how the contracting officer settled each
of the ten cited deficiencies in the contractor’s production pricing estimating procedures. The
negotiation memorandum for DCAA Audit Report No. 2641-2006G24020001 was vague and
could not be used by DCAA or the contractor to understand the contracting officer’s
determination on the contractor’s estimating system practice that resulted in the duplication of
material markup factors and overstatement of escalation. In both cases, neither DCAA nor the
contractor was able to identify or understand the contracting officer’s determination or determine
if the contractor should take corrective actions. As a result, the contracting officer had to reissue
a clarified negotiation memorandum.

In the third instance, the negotiation memorandum for DCAA Audit Report
No. 2641-2006G24020003 did not adequately explain how the contracting officer addressed
three of the findings in the negotiation memorandum for another audit report. We had to obtain a
verbal explanation from the contracting officer in order to determine that she had adequately
addressed these findings. As a result, the contract file does not provide a clear understanding
about how the contracting officer completed the disposition of these findings.

Understanding the DCAA findings and Pertinent Sections of the Federal Acquisition
Regulation. In 7 of 12 cases, the contracting officer did not demonstrate sufficient knowledge
of the FAR and other applicable regulations and DoD Directives.

Administration of Cost Accounting Standard Noncompliances. FAR 30.605, Processing
Noncompliances, identifies contracting officer responsibilities for processing noncompliances
reported by the auditor. Two of the 12 audit reports we reviewed involved alleged



                                                 4
noncompliances with a Cost Accounting Standard. In both cases, the contracting officer did not
process the reported noncompliances in accordance with FAR 30.605 Processing
Noncompliances. The contracting officer did not:

           •    Issue a notice of potential noncompliance to the contractor (or disagree with the
                auditor’s allegation) within 15 days after receiving the report
                [FAR 30.605(b)(1)];
           •    Obtain the contractor’s response to the noncompliance report within 60 days after
                issuing the notice of potential noncompliance [FAR 30.605(b)(2)], and
           •    Evaluate the contractor’s response and make a determination of compliance or
                noncompliance. [FAR 30.605(b)(3)].

In one of the two cases, the contracting officer also failed to assess interest on $2.3 million in
increased costs due to the Government for a contractor Cost Accounting Standard noncompliance, as
FAR 30.605(g) requires. FAR 30.605(g) states:

                “Interest. The CFAO [cognizant Federal Agency Official] shall—(1) Separately
                identify interest on any increased cost paid, in the aggregate, as a result of the
                noncompliance; (2) Compute interest from the date of overpayment to the date of
                repayment using the rate specified in 26 U.S.C. 6621(a)(2).” [clarification added]

We estimate that the interest associated with this noncompliance is approximately $466,000, which
the contracting officer should have collected in addition to the increased costs of $2.3 million.

These cases demonstrate that the contracting officer did not possess a sufficient knowledge and
understanding of her responsibilities as established in the FAR for properly administering and
resolving Cost Accounting Standard noncompliances. The contracting officer has not received
training on the administration of the Cost Accounting Standards since 1989.

Duties and Responsibilities for Evaluating a Contractor’s Estimating System. Defense Federal
Acquisition Regulation Supplement, Procedures Guidance and Information (DFARS PGI)
215.407-5, Estimating systems, outlines the responsibilities and procedures for conducting
contractor estimating system reviews and dispositioning estimating system reports. It states that
the contract auditor (DCAA) and the contract administration activity (DCMA) shall conduct
estimating system reviews as a team effort. Between December 2005 and November 2007,
DCAA issued five estimating system reports 3 to the contracting officer with findings and
recommendations. The contracting officer did not uphold the DCAA position on these reports.
Prior to issuing her determinations, the contracting officer did not consult with DCAA on the
review of the contractor responses to the DCAA reports, or discuss any concerns she had with
the significance of the DCAA-reported deficiencies.




3
 An audit of an estimating system represents a review of a contractor's organization, policies, and practices for
preparing cost estimates and pricing proposals to ensure they provide reliable estimates that are allowable, allocable
and reasonable in accordance with the FAR and applicable contract terms.


                                                          5
The contracting officer did not comply with the DFARS Procedures, Guidance, and Instructions
(PGI) requirement to conduct estimating system reviews as a team effort. The actions taken by
the contracting officer did not comply with DFARS PGI 215.407-5-70(f)(3) which states:

        “The ACO [administrative contracting officer], in consultation with the auditor, will
         evaluate the contractor’s response to determine whether-

         (i)     The estimating system contains deficiencies that need correction;
         (ii)    The deficiencies are significant estimating deficiencies that would result in
                 disapproval of all or a portion of the contractor’s estimating system; or
         (iii)   The contractor’s proposed corrective actions are adequate to eliminate the
                 deficiency.” [clarification and emphasis added]

Consulting with DCAA and working as a team ensures the government has formed a consensus
for identifying significant deficiencies and taking timely action to correct them.

In addition, the contracting officer stated she was unaware of her responsibility for determining
the adequacy of the contractor’s internal control systems (for example, the estimating system),
which is reflected in DFARS 215.407-5-70(c) and 244.305-70. The contracting officer
mistakenly thought DCAA was responsible for determining adequacy. These actions and
statements by the contracting officer indicate an insufficient understanding of her duties and
responsibilities for effectively evaluating contractor internal control systems.

Reporting Responsibilities Contained in DoD Directive 7640.2. As detailed in Finding B of this
report, the contracting officer assigned to the DCMA East Hartford office did not demonstrate a
sufficient knowledge of the record keeping and reporting requirements contained in DoD
Directive 7640.2. In addition, the contracting officer was unaware that DoD Directive 7640.2,
Paragraph 6.4.1, requires the preparation of a pre-negotiation memorandum to document the
contracting officer’s action plan for addressing reported findings and recommendations. In May
2009, (after we completed our fieldwork) DCMA provided the contracting officer with training
on DoD Instruction 7640.02 which replaced DoD Directive 7640.2.

Recommendation, Management Comments and
DoD IG Response
Recommendation A:
1. We recommend that the Executive Director of the Defense Contract Management
   Agency (Office of Independent Assessment):

       a. Provide training to the contracting officer at the Defense Contract Management
          Agency, East Hartford office, covering (at a minimum)

                 1) Preparation of adequate negotiation memoranda,
                 2) Federal Acquisition Regulation Subpart 30.6, Cost Accounting Standard
                    Administration, and


                                                         6
             3) Defense Federal Acquisition Regulation Supplement 215.407-5,
                Estimating Systems.

         Management Comments. The DCMA Executive Director, Contracts concurred.
         DCMA will assess the training needs of the contracting officer and provide the
         necessary training within the next 90 days.

         DoD IG Response. DCMA comments were responsive.

      b. Evaluate the contract audit follow-up training needs of the other contracting
         officers assigned to the Defense Contract Management Agency, East Hartford
         office and provide the necessary training based on the results of the evaluation.

         Management Comments. The DCMA Executive Director, Contracts concurred.
         DCMA will assess the training needs of the other contracting officers and provide the
         necessary training within the next 90 days.

         DoD IG Response. DCMA comments were responsive.

2. We recommend that the Commander, Defense Contract Management Agency, East
   Hartford office:

      a. Instruct the contracting officer to take action on the finding from Audit
         Report Number 2641-2006G24020003 involving the failure to use subcontract
         cost analysis to determine price reasonableness.

         Management Comments. The DCMA Executive Director, Contracts, concurred
         and considers the action complete because the ensuing events surrounding this
         procurement and the DCAA reported finding were self-correcting.

         DoD IG Response. DCMA comments were responsive. We agree that the ensuing
         events surrounding this procurement and the DCAA reported finding were self-
         correcting; however, we did not find the rationale presented by the Executive
         Director, Contracts, in the Contracting Officer's written disposition of Audit Report
         No. 2641-2641-2006G240003.

      b. Recover any interest due the government in accordance with Federal Acquisition
         Regulation 30.605(g) for the $2.3 million in increased costs due to the
         government for a cost accounting standard noncompliance reported in Defense
         Contract Audit Agency Audit Report Number 2641-2005G19200002.

         Management Comments. The DCMA Executive Director, Contracts concurred.
         The contracting officer is coordinating with DCAA and the contractor to recover the
         correct amount of interest owed to the Government.




                                             7
   DoD IG Response. DCMA comments were responsive. Upon receipt of the
   contractors check for interest owed the Government, DCMA will provide a copy of
   the check directly to our office.

c. Establish and document quality assurance procedures to help ensure that
   contracting officers:

      1) Timely resolve and disposition all Defense Contract Audit Agency audit
         findings and recommendations in accordance with DoD Instruction
         7640.02 and Office of Management and Budget Circular A-50;
      2) Provide an adequate legal basis for disagreement with the audit finding
         and/or recommendation as required by DoD Instruction 7640.02,
         Enclosure 3, paragraph 2.c.(1) and Office of Management and Budget
         Circular Number A-50, paragraph 8.a.(6);
      3) Resolve and disposition contract audit reports within the required
         timeframe, or include adequate written justification in the contract file
         for any resolutions and dispositions that occur beyond the specified
         timeframes.
      4) Comply with Federal Acquisition Regulation 30.605, Processing
         Noncompliances;

   Management Comments. The DCMA Executive Director, Contracts concurred.
   DCMA is developing a new Contract Audit Follow-up quality assurance policy that
   will help ensure contracting officers are adhering to the procedures in the acquisition
   regulations. The anticipated publication of the new policy is October 2009.

   DoD IG Response. DCMA comments were responsive.

d. Develop a process or plan that would ensure DCMA contracting officers work as
   a team with the Defense Contract Audit Agency in performing reviews of
   contractor estimating systems and resolving reported findings and
   recommendations.

   Management Comments. The DCMA Executive Director, Contracts concurred.
   DCMA is revising its policy to ensure contracting officers work as a team with
   DCAA consistent with the requirements in POI 215.407-5-70. DCMA anticipates
   issuing the revised policy in December 2009.

   DoD IG Response. DCMA comments were responsive.




                                        8
B. Inaccurate Contract Audit Follow-up Data
The contracting officer located at DCMA East Hartford did not maintain accurate records of
reportable contract audit reports. Consequently, DCMA East Hartford reported inaccurate CAFU
data to the DoD IG for each semiannual period ending March 31, 2007 through March 31, 2008.
As a result, DCMA management, the DoD IG, and Congress did not have accurate information on
contracting officer actions taken in response to contract audit reports. The inaccurate records
resulted from the contracting officer’s insufficient knowledge of the reporting and
documentation requirements included in DoD Directive 7640.2 as well as existing DCMA
guidance supplementing the Directive.

Data Accuracy Requirements. DoD Directive 7640.2 included the following requirements:

       •   Paragraph 6.3 required the maintenance of accurate and complete information regarding
           the status of reportable audit reports from the time a report is received through final
           disposition; and
       •   Paragraph 6.3.4 required that DoD Components submit semiannual reports on the status
           of reportable contract audits to the DoD IG. It identified the types of audits that are
           reportable, such as reports on Cost Accounting Standard noncompliances and contractor
           internal control systems with findings and recommendations.

Data Errors. We reviewed the accuracy of the CAFU records maintained by the DCMA East
Hartford contracting officer for each semiannual reporting period ending between
March 31, 2007 through March 31, 2008. The contracting officer reported on the status of
15 audit reports between these reporting periods. Our review disclosed:

       •   2 audit reports that were inaccurately added and 1 audit report that was missing from
           the semiannual reporting of CAFU data (Appendix D);
       •   2 records with incorrect questioned costs (Appendix E);
       •   1 record with incorrect sustained questioned costs (Appendix E);
       •   9 records with inaccurate resolution dates (Appendix F); and
       •   7 records with inaccurate disposition dates (Appendix F).

Most of the data errors resulted from the contracting officer’s lack of knowledge with the
requirements of DoD Directive 7640.2, and not verifying the accuracy of the DCAA listing of
reportable audits entered into the CAFU automated system. Although DCAA provides a
monthly electronic listing of reportable audits, the contracting officer is ultimately responsible
for data accuracy. The contracting officer needs to verify the DCAA-provided information
against the DCAA audit reports and make any necessary adjustments.

In May 2009 (after we completed our fieldwork), DCMA did provide the contracting officer with
training on DoD Instruction 7640.02 (DoD Instruction 7640.02 replaced DoD Directive 7640.2
on August 22, 2008). This training should help to improve the DCMA East Hartford contracting



                                                  9
officer’s knowledge of the contract audit follow-up reporting requirements. However, the
DCMA East Hartford office should also implement additional quality assurance procedures to
help prevent, detect, and correct data errors.

Recommendation, Management Comments and
DoD IG Response
Recommendation B.                      The Commander, Defense Contract Management
Agency East Hartford office needs to establish and document quality assurance procedures
to help ensure that contracting officers report accurate data in the Contract Audit Follow-
up system.

       Management Comments. The DCMA Executive Director, Contracts concurred.
       DCMA is in the process of developing a Contract Audit Follow-up quality assurance
       policy. This policy will address both the accuracy and completeness of reportable audit
       information from inception through final disposition.

       DoD IG Response. DCMA comments were responsive.




                                              10
Appendix A. Scope and Methodology
We evaluated the actions that a DCMA East Hartford contracting officer took on 12 audit reports
(including 5 referenced in a DoD Hotline complaint) to determine if the allegations contained in
a DoD Hotline complaint were valid. See Appendix B for a list of reports covered in this portion
of the review. As part of our review, we:

   •   reviewed DCMA contract files addressing the 12 DCAA audit reports to determine the
       validity of the DoD hotline complaint;
   •   interviewed DCAA and DCMA employees who were involved in issuing or taking action
       on the 12 reports; and
   •   determined if the actions taken by the contracting officer were compliant with applicable
       standards, public law, Department of Defense (DoD) regulations, directives, and
       instructions.
In addition to reviewing the Hotline complaint, we reviewed actions taken by the same
contracting officer on the reporting of contract audit follow-up data and the assessment of DCAA
recommended penalties for compliance with DoD Directive 7640.2 and the Federal Acquisition
Regulation.

Use of Computer-Processed Data. DCMA uses a Web-based eTools system that maintains
data on the status of actions taken to resolve and disposition contract audit reports. We verified
the eTools data used in our review to source documents.

Prior Coverage. In the last 5 years, we issued five other reports related to Defense Contract
Management Agency actions on Defense Contract Audit Agency audit reports.

       •   DoD IG Report No. D-2009-6-004, “Defense Contract Management Agency Actions on
           Audits of Cost Accounting Standards and Internal Control Systems at DoD Contractors
           Involved in Iraq Reconstruction Activities,” April 8, 2009
       •   DoD IG Report No. D-2007-6-010, “Reimbursement of Settlement Costs at Defense
           Contract Management Agency Melbourne,” September 28, 2007
       •   DoD IG Report No. D-2007-6-009, “Actions on Reportable Contract Audit Reports by
           the Defense Contract Management Agency’s Northrop Grumman El Segundo Office,”
           September 28, 2007
       •   DoD IG Report No. D-2007-6-004, “Defense Contract Management Agency Virginia’s
           Actions on Incurred Cost Audit Reports,” April 20, 2007
       •   DoD IG Report No. D-2005-6-003, “Defense Contract Management Agency Santa Ana
           Office’s Actions on Incurred Cost Audits,” March 17, 2005




                                                11
Appendix B. Review Results by Audit Report

                                                                                                Failure to
                                                                                               Understand
                                                       Failure                                   DCAA
                                                          to      Failure                      Findings &
                                                        Timely       to        Failure to     Demonstrate
                                                       Respond    Address       Execute       Knowledge of
                                                          to         all     Professionally     Pertinent
                                                        DCAA       DCAA         Written           FAR
DCAA Audit Report       Audit Type                     Findings   Findings    Disposition     Requirements
2641-2005E10502001S1    Operations (Labor Practices)      No         No           No               No
2641-2005G19200002      CAS 402 noncompliance            Yes         No           No               Yes
2641-2006A12030001      Purchasing System                 No         No           No               No
2641-2006B13500001      Labor Floor Check                 No         No           No               No
2641-2006G17900002      Pension Adjustment               Yes         No           No               No
2641-2006G19200002      CAS 414 & 417 noncompliance      Yes         No           No               Yes
2641-2006G24010001      Estimating System                Yes         No           Yes              Yes
2641-2006G24010002      Estimating System                 No         No           No               Yes
2641-2006G24020001      Estimating System (Flash)        Yes         No           Yes              Yes
2641-2006G24020002      Estimating System (Flash)        Yes         No           No               Yes
2641-2006G24020003      Estimating System (Flash)        Yes        Yes           Yes              Yes
2641-2007G10502001      Operations (Labor Practices)      No         No           No               No

Total Exceptions (“Yes” Responses)                        7          1             3               7




                                                  12
Appendix C. Untimely Resolution and Disposition

                                                          Number of              Number of
                                                         Months Past           Months Past
                                     Audit Report        the 6 Month           the 12 Month
         Audit Report Number             Date           Resolution Rule       Disposition Rule        Note
        2641-2005G19200002            23-Sep-05                7                     3                 1
        2641-2006G19200002            31-Mar-06               10                     4                 1
        2641-2006G24010001            16-Aug-07                3                      -                1
        2641-2006G17900002            20-Dec-05               15                    N/A                2
        2641-2006G24020001            28-Dec-05               16                    N/A                2
        2641-2006G24020002            28-Dec-05               15                    N/A                2
        2641-2006G24020003            22-Aug-06                8                    N/A                2
         Average                                             10.5                   3.5

Notes:
   1. The DCMA East Hartford contracting officer did not timely resolve and/or complete the
       disposition of these audits based on the timeframes established in DoD Directive 7640.2.
       This Directive requires the resolution of reportable 4 contract audit reports within
       6 months and the disposition of reportable contract audits within 12 months. Resolution
       of an audit report takes place when the contracting officer prepares a written action for
       responding to the reported findings. Disposition generally occurs when the contracting
       officer reaches a settlement with the contractor on the reported findings or issues a final
       decision under the Disputes Clause.

    2. The DCMA East Hartford contracting officer did not timely resolve these audits using the
       criteria in Office of Management and Budget (OMB) Circular A-50, paragraph 8a(2),
       which requires audit resolution within 6 months. For these audits, we used OMB
       Circular A-50 because the audits do not qualify as reportable under DoD Directive
       7640.2. Unlike, DoD Directive 7640.2, OMB Circular A-50 does not contain a 12 month
       disposition rule.




4
  Reportable audits refer to certain types of audits that were subject to the reporting requirements in DoD Directive
7640.2. Refer to Enclosure 4 of DoD Directive 7640.2 (or Enclosure 5 of DoD Instruction 7640.02) for a detailed
listing of reportable audits.


                                                          13
Appendix D. Audit Reports Inaccurately Added or
            Missing
                                                   Audit Report
                        Audit Report Number           Date         Note
                      Inaccurately Added
                      2641-2004B10100002            28-Sep-06        1
                      2641-2004B10100003            29-Sep-06        1

                      Missing
                      2641-2006A12030001            28-Feb-07        2

Notes:
   1. Represents non-reportable contract audit reports included in the semiannual data reported
       to the DoD IG by the DCMA East Hartford contracting officer.

   2. The DCMA East Hartford contracting officer did not include this reportable audit in the
      semiannual data reported to the DoD IG.




                                              14
Appendix E. Reported Incorrect Costs
                                                          Sustained
                                                            Cost       Sustained
                                                         According        Cost
                          Questioned      Questioned          to        Reported
                            Cost            Cost         Negotiation   In CAFU*
  Audit Report Number    DCAA Report     CAFU System        Files        System     Difference
2641-2004B10100003             $32,000             $32                                   $31,968
2641-2005E10502001S1       $20,143,177      $8,863,998                              $11,279,179

2641-2005G19200002                                        $2,258,659          $0    $(2,258,659)

For three audit reports, the DCMA East Hartford contracting officer reported inaccurate
questioned and/or sustained costs in the eTools CAFU system. The contracting officer should
have compared the questioned cost amounts in the DCAA audit report to those reflected in the
eTools CAFU system to ensure their accuracy.




                                              15
Appendix F. Reported Date Inaccuracies
                                        Resolution                            Disposition
                                           Date                                   Date
                             Actual      Reported         Actual               Reported
                           Resolution    in CAFU        Disposition           in CAFU*
    Audit Report Number       Date        System            Date                System           Note
    2641-2004B10100001      1-Nov-06     6-Sep-06        1-Nov-06              6-Sep-06          1, 2
    2641-2004B10100002      1-Nov-06    31-Oct-06        1-Nov-06             31-Oct-06          1, 2
    2641-2004B10100003      1-Nov-06    29-Mar-07        1-Nov-06             24-May-07          1, 2
    2641-2004B10100004      1-Nov-06    20-Dec-06        1-Nov-06             20-Dec-06          1, 2
    2641-2004B10100005      1-Nov-06    11-Dec-06        1-Nov-06             11-Dec-06          1, 2
    2641-2005E10502001S1   10-May-07     9-May-07       10-May-07             10-May-07           1
    2641-2005G19200002      7-Nov-06     7-Nov-06        4-Jan-07              7-Nov-06           2
    2641-2006G24010001      1-May-08     2-Apr-08        1-May-08              1-May-08           1
    2641-2007G10502001     22-May-07    24-May-07       22-May-07             24-May-07          1, 2
    2641-2007Q11010001     15-Nov-07    16-Apr-08    Under Investigation   Under Investigation    1

Notes:
   1. The DCMA East Hartford contracting officer inaccurately reported 10 resolution dates in
       the CAFU system as evidenced by the date of negotiation memoranda included in the DCMA
       contract file.

   2. The DCMA East Hartford contracting officer inaccurately reported 7 disposition dates in
      the CAFU system as evidenced by the date of negotiation memoranda included in the DCMA
      contract file.




                                                16
Defense Contract Management Agency
Comments




                       17
Defense Contract Management Agency
Comments




                       18
Defense Contract Management Agency
Comments




                       19
Defense Contract Management Agency
Comments




                       20
Defense Contract Management Agency
Comments




                       21
